                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

Subject:


  AUDIT OF THE INFORMATION TECHNOLOGY
          SECURITY CONTROLS OF THE
  U.S. OFFICE OF PERSONNEL MANAGEMENT’S
     Service Credit Redeposit and Deposit System
                      FY 2012
                                           Report No. 4A-CF-00-12-015


                                          Date:                August 9, 2012




                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                       Audit Report

                              U.S. OFFICE OF PERSONNEL MANAGEMENT
                               -------------------------------------------------------------
                   AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                      CONTROLS OF THE U.S. OFFICE OF PERSONNEL
                            MANAGEMENT’S SERVICE CREDIT
                            REDEPOSIT AND DEPOSIT SYSTEM
                                             FY 2012
                                  --------------------------------
                                    WASHINGTON, D.C.




                                          Report No. 4A-CF-00-12-015


                                          Date:                  August 9, 2012




                                                                                     Michael R. Esser
                                                                                     Assistant Inspector General
                                                                                       for Audits


                                                          --CAUTION--
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                    Executive Summary

                      U.S. OFFICE OF PERSONNEL MANAGEMENT
                       -------------------------------------------------------------
              AUDIT OF THE INFORMATION TECHNOLOGY SECURITY
                 CONTROLS OF THE U.S. OFFICE OF PERSONNEL
                       MANAGEMENT’S SERVICE CREDIT
                       REDEPOSIT AND DEPOSIT SYSTEM
                                        FY 2012
                             --------------------------------
                               WASHINGTON, D.C.




                               Report No. 4A-CF-00-12-015


                                Date:            August 9,2012

This final audit report discusses the results of our audit of the information technology security
controls of the U.S. Office of Personnel Management’s (OPM) Service Credit Redeposit and
Deposit System (SCRD). Our conclusions are detailed in the “Results” section of this report.

During this audit, we discovered that OPM had made little progress in implementing many of the
recommendations from a prior audit of SCRD. These prior audit recommendations relate to the
weak systems development lifecycle controls used by OPM during its effort to correct ongoing
issues with prior versions of SCRD. Considering the fact that this system will likely need to be
replaced in the near future, we are very concerned that the fundamental issues that plagued the
prior service credit systems have not been addressed by OPM.

OPM should immediately dedicate the appropriate resources needed to address our prior audit
recommendations so that the agency does not face another system failure, and the repercussions
that result from such failure.




                                                    i
In addition to this concern, we noted the following controls in place and opportunities for
improvement for SCRD:

Certification and Accreditation Statement (C&A)
A C&A of the SCRD was completed in July 2010. We reviewed the certification package for all
required elements of a C&A, and determined that the package contained all necessary
documentation.

Federal Information Processing Standards (FIPS) 199 Analysis

The security categorization of the SCRD appears to be consistent with FIPS 199 and NIST SP
800-60 requirements, and the OIG agrees with the categorization of “moderate.”

Information System Security Plan (ISSP)
The SCRD ISSP contains the critical elements suggested by National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-18.

Risk Assessment
A risk assessment was conducted for the SCRD in fiscal year (FY) 2010 that addresses all the
required elements outlined in relevant NIST guidance.

Independent Security Control Testing
An independent test of security controls was completed for the SCRD as a part of the system’s
C&A process in June 2010. However, the results of the test contained many inconsistencies and
the test was not completed in accordance with NIST SP 800-37 requirements.

Security Control Self-Assessment
A security controls self-assessment was conducted for SCRD in FY 2011.

Contingency Planning and Contingency Plan Testing
A contingency plan was developed for the SCRD that is in compliance with NIST SP 800-34.
However, a contingency plan test was not conducted for SCRD in FY 2011.

Privacy Impact Assessment (PIA)
A PIA was completed for the SCRD in March 2010.

Plan of Action and Milestones (POA&M) Process
The SCRD POA&M follows the format of the OPM POA&M guide, and has been routinely
submitted to the Office of the Chief Information Officer for evaluation. However, vulnerabilities
found during the security controls self-assessment were not documented and tracked on the
SCRD POA&M.

                                                ii
NIST SP 800-53 Evaluation
We evaluated the degree to which subsets of the IT security controls outlined in NIST SP 800-53
were implemented for SCRD. Although the majority of the tested security controls have been
successfully implemented, some controls were not fully satisfied. Audit logging policies and
procedures have not been created and implemented for SCRD. In addition, numerous
vulnerabilities were identified in the results of the OIG vulnerability scan of SCRD.




                                              iii
                                                                 Contents
                                                                                                                                               Page

Executive Summary ......................................................................................................................... i
Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives ........................................................................................................................................2
Scope and Methodology ..................................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
     I. Certification and Accreditation Statement .............................................................................4
    II. FIPS 199 Analysis ..................................................................................................................4
   III. Information System Security Plan ..........................................................................................4
  IV. Risk Assessment .....................................................................................................................5
   V. Independent Security Control Testing ....................................................................................5
  VI. Security Control Self-Assessment ...........................................................................................6
 VII. Contingency Planning and Contingency Plan Testing ............................................................6
VIII. Privacy Impact Assessment.....................................................................................................7
  IX. Plan of Action and Milestones Process...................................................................................7
   X. NIST SP 800-53 Evaluation ....................................................................................................8
  XI. Follow-up of Prior Recommendations ..................................................................................10
Major Contributors to this Report ..................................................................................................12
Appendix: OPM’s Retirement Services’ May 2, 2012 response to the draft audit report,
          issued April 9, 2012
                                        Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107-347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we evaluated the information technology
(IT) security controls related to the Office of Personnel Management’s (OPM) Service Credit
Redeposit and Deposit System (SCRD).

                                        Background
SCRD is one of OPM’s critical IT systems. As such, FISMA requires that the Office of the
Inspector General (OIG) perform an audit of IT security controls of this system, as well as all of
the agency’s systems on a rotating basis. OPM’s Retirement Services (RS) division has
ownership and managerial responsibility of the SCRD system. The Benefits Systems Group
(BSG) within OPM’s Office of the Chief Information Officer (OCIO) is responsible for IT
development, support, and maintenance of the system.

Service Credit is a retirement program mandated by law (CFR Title 5, Part 831, Subpart
831.105) that provides government employees an opportunity to make payments into the Civil
Service Retirement System or Federal Employee Retirement System for periods of service
during which they either did not contribute to the Civil Service Retirement and Disability Fund
(CSRDF), or for which they received a refund of their retirement contributions. An employee
may participate in the Service Credit program to ensure receipt of the maximum retirement
benefits to which he or she is entitled. Eligible employees may pay a deposit into the CSRDF to
cover any creditable Federal civilian service that was not subject to retirement deductions, or
they may make a redeposit to cover any period of Federal service for which a refund of
retirement contributions was received.

Until 2006, this process was facilitated by a mainframe-based information system that had been
in place for many years. This system handled basic transactions, but was not designed to
accommodate the many complexities of the business process, particularly the special retirement
rules for various classes of federal employees. In April 2006, a newer, more modern version of
the service credit system was released which was designed to allow most types of transactions to
be automatically processed on users’ desktop computers.

In December 2007, RS (then known as the Center for Retirement and Insurance Services)
discovered anomalies in the payment and interest amounts computed by SCRD. It was later
discovered that the system was not properly calculating interest in some cases. Attempts to
correct the problems were not successful, and the system was eventually taken offline in July
2008. Corrections were made to the system and it was brought back on-line in October of 2008.
In August 2009, a new version of the system was distributed to users and programmers attempted
to correct data that had been corrupted because of the problems with the previous version.
However, users continued to identify problems with both the system and the data. It wasn’t until



                                                 1
December 2010 that SCRD Version 4.5, including a proper data correction process, was tested
and implemented.

The OIG conducted a review of the system during the development and testing phase of SCRD
Version 4.5 (Report No. 4A-CF-00-10-021, issued January 8, 2010). The 2010 report contained
eight recommendations, six of which were still open as of May 31, 2012.

                                         Objectives
Our objective was to perform an evaluation of the security controls for SCRD to ensure that RS
officials have implemented IT security policies and procedures in accordance with standards
established by FISMA, the National Institute of Standards and Technology (NIST), and OPM’s
OCIO.

OPM’s IT security policies require managers of all major information systems to complete a
series of steps to (1) certify that their system’s information is adequately protected and (2)
authorize the system for operations. The audit objective was accomplished by reviewing the
degree to which a variety of security program elements have been implemented for SCRD,
including:
•   Certification and Accreditation Statement;
•   FIPS 199 Analysis;
•   Information System Security Plan;
•   Risk Assessment;
•   Independent Security Control Testing;
•   Security Control Self-Assessment;
•   Contingency Planning and Contingency Plan Testing;
•   Privacy Impact Assessment;
•   Plan of Action and Milestones Process; and
•   NIST Special Publication (SP) 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of RS officials
responsible for SCRD, including IT security controls in place as of April 2012.

We considered the SCRD internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives of OPM’s RS division and other
individuals with SCRD security responsibilities. We reviewed relevant OPM IT policies and
procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate, we



                                                2
conducted compliance tests to determine the extent to which established controls and procedures
are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of SCRD
are located in the “Results” section of this report. Since our audit would not necessarily disclose
all significant matters in the internal control structure, we do not express an opinion on the
SCRD system of internal controls taken as a whole.

The criteria used in conducting this audit include:
•   OPM Information Technology Security Policy Volumes 1 and 2;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;
•   Federal Information Processing Standards Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from November 2011
through April 2012 in OPM’s Washington, D.C. office.

                     Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether RS management of SCRD is
consistent with applicable standards. Nothing came to the OIG’s attention during this review to
indicate that RS is in violation of relevant laws and regulations.



                                                 3
                                              Results
 I. Certification and Accreditation Statement
    A security certification and accreditation (C&A) of SCRD was completed in July 2010.

    NIST SP 800-37 “Guide for the Security Certification and Accreditation of Federal
    Information Systems,” provides guidance to federal agencies in meeting security accreditation
    requirements. The SCRD C&A appears to have been conducted in compliance with NIST
    requirements.

    OPM’s Senior Agency Information Security Officer (representing the OCIO) reviewed the
    SCRD C&A package and signed the system’s certification package on July 20, 2010. The
    system owner signed the accreditation statement and authorized the continued operation of the
    system on July 23, 2010.

II. FIPS 199 Analysis
    Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems, requires federal agencies to
    categorize all federal information and information systems in order to provide appropriate
    levels of information security according to a range of risk levels.

    NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories, provides an overview of the security objectives and impact
    levels identified in FIPS Publication 199.

    The SCRD information system security plan (ISSP) categorizes information processed by the
    system and its corresponding potential impacts on confidentiality, integrity, and availability.
    SCRD is categorized with a moderate impact level for confidentiality, moderate for integrity,
    moderate for availability, and an overall categorization of moderate.

    The security categorization of SCRD appears to be consistent with FIPS 199 and NIST SP
    800-60 requirements, and the OIG agrees with the categorization of moderate.

III. Information System Security Plan
    Federal agencies must implement on each information system the security controls outlined in
    NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems. NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal
    Information Systems, suggest that these controls be documented in an ISSP for each system,
    and provides guidance for doing so.

    The ISSP for SCRD was created using the template outlined in NIST SP 800-18. The
    template requires that the following elements be documented within the ISSP:
    •   System Name and Identifier;
    •   System Categorization;
    •   System Owner;


                                                   4
    •   Authorizing Official;
    •   Other Designated Contacts;
    •   Assignment of Security Responsibility;
    •   System Operational Status;
    •   Information System Type;
    •   General Description/Purpose;
    •   System Environment;
    •   System Interconnection/Information Sharing;
    •   Laws, Regulations, and Policies Affecting the System;
    •   Security Control Selection;
    •   Minimum Security Controls; and
    •   Completion and Approval Dates.

    The SCRD ISSP adequately addresses each of the elements required by NIST.

IV. Risk Assessment
    A risk assessment is used as a tool to identify security threats, vulnerabilities, potential
    impacts, and probability of occurrence. In addition, a risk assessment is used to evaluate the
    effectiveness of security policies and recommend countermeasures to ensure adequate
    protection of information technology resources.

    NIST SP 800-30, Risk Management Guide for Information Technology Systems, offers a nine
    step systematic approach to conducting a risk assessment that includes: (1) system
    characterization; (2) threat identification; (3) vulnerability identification; (4) control analysis;
    (5) likelihood determination; (6) impact analysis; (7) risk determination; (8) control
    recommendation; and (9) results documentation.

    A risk assessment was conducted for SCRD in 2010 that adequately addresses all of the
    elements outlined in the NIST guidance.

V. Independent Security Control Testing
    An independent security controls test was completed for SCRD in June 2010 as a part of the
    system’s C&A process. The test was conducted by OPM’s Human Resources Tools and
    Technology group, which was operating independently from RS. The test was designed to be
    a full-scope assessment of the appropriate management, operational, and technical controls
    required for a system with a “moderate” security categorization according to NIST SP 800-53
    Revision 3, Recommended Security Controls for Federal Information Systems.

    However, we do not believe that SCRD has been subject to an adequate independent security
    controls assessment. During our review of the test results we identified the following
    anomalies:
        •   The description of several controls indicated that the controls were not satisfied or not
            implemented; however, these items are labeled as “passed.”
        •   Several controls that are only partially implemented are labeled as “passed.”



                                                     5
        •   None of the security weaknesses identified during this test, including those labeled as
            “failed” are listed on the SCRD Plan of Action and Milestones (POA&M).

     NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
     Information Systems, requires that a proper security assessment report be part of the final
     accreditation package. Without an accurate assessment report the certification agent cannot
     determine if the system controls have been implemented correctly, are operating as intended,
     and are producing the desired outcome with respect to meeting the system’s security
     requirements.

     Recommendation 1
     We recommend that RS complete a full-scope independent security controls assessment of
     SCRD.

     RS Response:
     “Retirement Services agrees with the recommendation. We were already contracting an
     independent tester for the upcoming year's continuous monitoring. RS will ensure a full-
     scope independent security controls assessment of Service Credit is conducted.”

     OIG Reply:
     As part of the audit resolution process, we recommend that RS provide Internal Oversight and
     Compliance (IOC) with evidence supporting the remediation of the recommendation.

VI. Security Control Self-Assessment
     FISMA requires that the IT security controls of each major application owned by a federal
     agency be tested on an annual basis. In the years that an independent security controls test is
     not conducted on the system, the system’s owner must conduct an internal self-assessment of
     security controls.

     A partial-scope vulnerability assessment was conducted on the SCRD system in April 2011.
     The assessment included a review of a subset of management, operational, and technical
     security controls outlined in NIST SP 800-53 Revision 3. Although this test meets the
     FISMA requirement of an annual partial-scope security controls assessment, it does not
     address the required full-scope independent test that is required with each C&A (see
     Recommendation 1, above).

VII. Contingency Planning and Contingency Plan Testing
     NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
     contingency planning, execution, and testing are essential to mitigate the risk of system and
     service unavailability. OPM’s security policies require all major applications to have viable
     and logical disaster recovery and contingency plans, and that these plans be annually
     reviewed, tested, and updated.




                                                    6
      Contingency Plan
      The SCRD contingency plan documents the functions, operations, and resources necessary to
      restore and resume SCRD operations when unexpected events or disasters occur. The SCRD
      contingency plan closely follows the format suggested by NIST SP 800-34 and contains a
      majority of the required elements.

      Contingency Plan Test
      NIST SP 800-34, Contingency Planning Guide for Information Technology, provides
      guidance for testing contingency plans and documenting the results. Contingency plan testing
      is a critical element of a viable disaster recovery capability.

      A simulated “table top” test of the SCRD contingency plan was conducted in June 2010.
      The documented results of this test indicate that it was conducted in compliance with NIST
      800-34 guidelines. However, no annual contingency plan test was completed for SCRD in
      FY 2011.

      Failure to complete a contingency plan test increases the likelihood that system owners will
      be unable to recover their systems when unexpected events or disasters occur.

      Recommendation 2
      We recommend RS conduct a contingency plan test of SCRD in FY 2012.

      RS Response:
      “Retirement Services concurs with this recommendation. Since the SCRD was just revived
      in December 2010, there was a management decision to not participate in the May 2011
      annual OPM disaster recovery testing. Retirement Services is scheduling and preparing to
      test SCRD in the Annual Disaster Recovery exercise to be executed later this month.”

VIII. Privacy Impact Assessment
      FISMA requires agencies to perform a screening of federal information systems to determine
      if a Privacy Impact Assessment (PIA) is required for that system. OMB Memorandum M-03-
      22 outlines the necessary components of a PIA. The purpose of the assessment is to
      evaluate any vulnerabilities of privacy in information systems and to document any privacy
      issues that have been identified and addressed.

      In March of 2010 the system owners of SCRD completed a PIA based on the guidelines
      contained in OPM’s PIA Guide. The PIA was reviewed by OPM’s Chief Privacy Officer and
      Chief Information Officer.

 IX. Plan of Action and Milestones Process
      A POA&M is a tool used to assist agencies in identifying, assessing, prioritizing, and
      monitoring the progress of corrective efforts for IT security weaknesses. OPM has
      implemented an agency-wide POA&M process to help track known IT security weaknesses
      associated with the agency’s information systems.


                                                    7
   The SCRD POA&M follows OPM’s standard template and has been routinely submitted to
   OCIO for evaluation. However, we determined that the SCRD POA&M did not contain
   action items for all security weaknesses of the system identified through various security
   control tests and audits. In 2009, the OIG conducted an audit of the new SCRD system and
   identified many areas for improvement and provided recommendations accordingly; these
   recommendations are not listed on the SCRD POA&M.

   FISMA requires all agencies to report on their efforts to remediate security weaknesses in
   information technology systems and programs. Agencies must report their progress through
   quarterly and annual reports.

   Failure to track all identified system security weaknesses on the POA&M increases the risk
   that these vulnerabilities remain unresolved for a prolonged period, increasing the likelihood
   that an attacker may exploit the weaknesses.

   Recommendation 3
   We recommend RS incorporate all vulnerabilities discovered during security controls testing
   and independent audits into the SCRD POA&M.

   RS Response:
   “Retirement Services concurs with this recommendation.”

X. NIST SP 800-53 Evaluation
   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
   Systems, provides guidance for implementing a variety of security controls for information
   systems supporting the federal government. As part of this audit, we evaluated 47 of these
   security controls from the following families:
      •   Access Control
      •   Audit and Accountability
      •   Security Assessment and Authorization
      •   Configuration Management
      •   Contingency Planning
      •   Identification and Authentication
      •   Incident Response
      •   Planning
      •   Personnel Security
      •   Risk Assessment
      •   System and Services Acquisition
      •   System and Information Integrity

   These controls were evaluated by interviewing individuals with SCRD security responsibility,
   reviewing documentation and system screenshots, viewing demonstrations of system
   capabilities, and conducting tests directly on the system.


                                                  8
Although it appears that the majority of NIST SP 800-53 security controls have been
successfully implemented for SCRD, several tested controls were not fully satisfied.

a) AU-1 Audit and Accountability Policy and Procedures, AU-2 Auditable Events,
   AU-6 Audit Review, Analysis and Reporting
   SCRD does not currently have audit and accountability policies and procedures in place.
   In addition, we have not received evidence that audit logs are generated by the system.

   The independent security controls assessment conducted in 2010 did not include tests of
   several audit-related controls. The test report did indicate that the “audit review” control
   was tested, but failed because audit log review was only done on an “ad hoc” basis.

   NIST SP 800-53 Revision 3 requires that an organization develop a formal, documented
   audit and accountability policy and procedure (control AU-1). In addition the NIST
   guide requires agencies to determine which transactions conducted by the system should
   be audited (control AU-2). Finally, the guide requires system owners to review and
   analyze information system audit records on a routine basis (control AU-6).

   Failure to implement audit and accountability policies and procedures increases the risk of
   fraudulent or inaccurate transactions being processed undetected.

   Recommendation 4
   We recommend that RS determine what type of events and transactions performed by
   SCRD should be logged, and document this in a formal audit policy.

   RS Response:
   ‘Retirement Services concurs with this recommendation.”

   Recommendation 5
   We recommend that RS modify SCRD to record audit logs in accordance with the audit
   policy.

   RS Response:
   “Retirement Services concurs with this recommendation.”

   Recommendation 6
   We recommend that RS develop and implement procedures for routinely reviewing SCRD
   audit logs.

   RS Response:
   “Retirement Services concurs with this recommendation.”



                                               9
    b) RA-5 Vulnerability Scanning
       NIST SP 800-53 requires an organization to: scan for vulnerabilities in the information
       system and hosted applications; employ vulnerability scanning tools and techniques;
       analyze vulnerability scan reports and results; remediate legitimate vulnerabilities; and
       share information obtained from the vulnerability scanning process with the appropriate
       security personnel.

       We received evidence that RS conducts routine vulnerability scanning on the databases
       and computer servers supporting SCRD. However, the vulnerabilities detected during
       these scans are not included on the SCRD POA&M. Failure to analyze the vulnerability
       scans and track confirmed weaknesses on the system’s POA&M increases the likelihood
       that the vulnerabilities will not be fixed in a timely manner and that attackers will exploit
       these flaws for malicious attacks.

       As part of this audit, we conducted vulnerability scans of SCRD’s technical environment,
       including the Windows server and Oracle database supporting the system. These scans
       evaluated SCRD for security vulnerabilities, missing patches, and appropriate
       configuration settings. Our scan results identified numerous weaknesses; the details of
       the scans were provided to RS personnel but will not be included in this report.

       Recommendation 7
       We recommend RS implement a process to analyze the results of the SCRD vulnerability
       scans and document confirmed vulnerabilities on the system’s POA&M.

       RS Response:
       ***RS comments removed by OIG; comments were relevant to the draft audit report, but
       not to the final report recommendation***

       Recommendation 8
       We recommend RS review the results of the vulnerability scan conducted by the OIG and
       make the appropriate modifications to SCRD.

       RS Response:
       “Retirement Services will review the results of the vulnerability scans conducted by the OIG
       as part of this audit.”

XI. Follow-up of Prior Recommendations
    In April 2006, a new version of SCRD was released to replace the legacy mainframe service
    credit system. This system was plagued with problems until a stable replacement was finally
    put in place in December 2010. We conducted an in depth review of this system during the
    development and testing phase and issued Report No. 4A-CF-00-10-021 in January 2010.
    The 2010 report contained eight specific recommendations related to separation of duties,
    system requirements, and data entry errors.



                                                   10
Throughout this period there was intense focus on the system development process by account
holders, the media, Congress, and senior OPM management. The agency was embarrassed
and OPM’s reputation for incompetent management of its IT systems development projects
seemed to be confirmed. Account holders were inconvenienced and agency resources were
expended to deal with the problems created by the failed system.

The system that was finally put in place was not a properly developed billing and retirement
system, but more of a patchwork effort to correct a system with a fundamentally flawed
design. It is clear that at some point in the near future, the current system will need to be
scrapped and developed from the ground up based on the many complex requirements of the
business process.

However, at the beginning of this audit only two of the eight recommendations from our 2010
report had been fully implemented. One of the most significant of the open recommendations
relates to properly managing business requirements. During the original review, we found
that the primary cause of the system’s failure to properly calculate account balances was the
lack of a fully developed requirements traceability matrix. Almost three years after the
problems were originally highlighted, the business requirements for this system are still not
properly documented.

A fully developed requirements traceability matrix is especially important because of the
myriad and complex retirement laws that impact processing service credit cases. In addition,
when agency management decides that a new system is in order, the business process must be
fully documented or there is a high risk of another failed system development project.

Given the damage caused by the previous system failure to the agency and its stakeholders, it
is difficult to understand why more progress has not been made in correcting the fundamental
issues that caused the original problems. Many of the recommendations require action from
OPM program offices outside of RS, primarily BSG as the technical developers and
administrators of the system. Furthermore, as mentioned in section IX, above, these
recommendations are not listed on the SCRD POA&M, and therefore their current status
cannot be tracked by the OCIO’s IT Security and Privacy Group.

In order for progress to be made in implementing the 2010 recommendations, each item needs
to be tracked on the SCRD POA&M, and specific program offices need to be assigned
responsibility for each task/milestone needed to address the overall weakness. Responsibility
for coordinating this remediation effort falls with OPM’s IOC.

Recommendation 9
We recommend that IOC work with RS and BSG to develop milestones and assign
responsibility for specific tasks related to remediating the recommendations issued in OIG
Report No. 4A-CF-00-10-021.

RS Response:
[No comments provided.]



                                              11
                   Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of
Inspector General, Information Systems Audits Group. The following individuals
participated in the audit and the preparation of this report:

•                  , Group Chief
•                    , Senior Team Leader
•                  , IT Auditor
                                     UNITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                                     Washington, DC 20415



Retirement Services

                                                                                                       May 2, 2012


     MEMORANDUM FOR:
                                                  Chief, Information Systems Audits Group


     FROM:
                                                  Chief, Quality Assurance
                                                  Retirement Services


     SUBJECT:                                     Response to Draft Report re: Audit of the Information Technology
                                                  Security Controls of the U.S. Office of Personnel Management’s
                                                  Service Credit Redeposit and Deposit System (Report No. 4A-CF-
                                                  00-12-015)


     This memorandum is in response to the Inspector General’s draft report re: the Audit of the
     Information Technology Security Controls of the Service Credit Redeposit and Deposit System
     (SCRD).

     The statements in the beginning portion of the Executive Summary do not fully reflect the
     functionality and role of the Service Credit System. In order to receive credit for particular
     periods of service, either service for which no retirement deductions were withheld or was
     refunded, an active federal employee can submit an application to pay for the service in order to
     receive full credit at retirement. SCRD calculates the initial deposit and/or redeposit amount and
     the system then acts as an accounts receivables system, crediting payments and calculating
     interest. Based on these payments, credit may be given later, when the retirement benefit is
     calculated using FACES or RATE and RATF. SCRD does not actually compute any retirement
     benefits, and consequently does not compute incorrect retirement benefits as stated in the
     summary.

     With regards to the recommendations directed to RS in Draft Report No. 4A-CF-00-12-015, our
     responses are as follows:

           •    Recommendation #1 – Retirement Services agrees with the recommendation. We were
                already contracting an independent tester for the upcoming year’s continuous monitoring.
                RS will ensure a full-scope independent security controls assessment of Service Credit is
                conducted.

      __________________________________________________________________________________________________________________________________________________
                 Manage your Federal retirement account anywhere and anytime at www.servicesonline.opm.gov and www.opm.gov/retire
   •   Recommendation #2 – Retirement Services concurs with this recommendation. Since the
       SCRD was just revived in December 2010, there was a management decision to not
       participate in the May 2011 annual OPM disaster recovery testing. Retirement Services
       is scheduling and preparing to test SCRD in the Annual Disaster Recovery exercise to be
       executed later this month.

   •   Recommendation #3 – Retirement Services concurs with this recommendation.

   •   Recommendation #4 – Retirement Services concurs with this recommendation.

   •   Recommendation #5 – Retirement Services concurs with this recommendation.

   •   Recommendation #6 – Retirement Services concurs with this recommendation.

   •   Recommendation #7 - On December 22nd, 2011, RS originally submitted vulnerability
       scans as evidence to the OIG. It appears there was a problem with OPM’s email service
       and the evidence was never received by the IG. The vulnerability scan evidence was
       resent on April 17th, 2012 in four separate emails and RS received confirmation of
       receipt.

   •   Recommendation #8 – Retirement Services will review the results of the vulnerability
       scans conducted by the OIG as part of this audit.



Thank you for the opportunity to provide comments on the draft report, especially in regards to
Recommendation #7, which may be moot now with the evidence provided previously. If you
have any questions, or want to discuss further, please let me know.
